No. 19-859

In The
SUPREME COURT OF THE UNITED STATES

STUART FORCE, et ai.,
Petitioners,
v.
FACEBOOK, INC.

Respondent

On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Second Circuit
MOTION TO DELAY DISTRIBUTION
OF PETITION FOR WRIT OF CERTIORARI

 

ERIC SCHNAPPER
Counsel of Record

University of Washington

School of Law

P.O. Box 353020

Seattle, Washington 98195

(206) 616-3167

schnapp@u.washington.edu

Robert J. Tolchin

The Berkman Law Office, LLC
111 Livingston Street, Suite 1928
Brooklyn, New York 11201
(718) 855-3627
rtolchin@berkmanlaw.com

Counsel for Petitioners
Pursuant to this Court’s order of March 19, 2020, petitioners move for a two-week delay of
the distribution of the petition for writ of certiorari in this case, due to difficulties related to
COVID-19.

The brief in opposition in this case was filed on March 24, 2020. Under the Clerk’s
ordinary practice, the petition for writ of certiorari would be distributed on Wednesday, April 8,
2020. Ifthe motion to delay distribution is granted, the petition would be distributed on
Wednesday, April 22, 2020.

The delay is requested because counsel for petitioners needs additional time to file a reply
due to difficulties related to COVID-19. Two days before the brief in opposition was filed and
served on counsel for petitioners, the governor of Washington, where counsel resides and works,
directed that all non-essential businesses close. The University of Washington, where counsel’s
office is located, was closed except for certain functions not relevant here. In addition, individuals
of the age of counsel for petitioners have been strongly advised by state and federal authorities to
remain at home as much as possible. Preparation of the reply brief, under these conditions, will
involve significant unavoidable delay.

Counsel for has not yet been able to ascertain whether counsel for respondent objects to this
motion.

Wherefore petitioners respectfully request the Clerk to delay distribution of the petition for

writ of certiorari until April 22, 2020.

  
    

Respectfutfy submit
April 2, 2020

Eric Schnapper

Counsel of Record
University of Washington
School of Law
P.O. Box 353020
Seattle, Washington 98195
(206) 616-3167
schnapp@u.washington.edu

Robert J. Tolchin

The Berkman Law Office, LLC
111 Livingston Street, Suite 1928
Brooklyn, New York 11201
(718) 855-3627
ttolchin@berkmanlaw.com

Counsel for Petitioners
